HHS/OIG-Audit - "Audit of Oklahoma Medicaid School-Based Services Provided Free to Other Students and Not Exempt Under the Individuals with Disabilities Education Act," (A-06-01-00077)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Oklahoma Medicaid School-Based Services Provided Free to Other
Students and Not Exempt Under the Individuals with Disabilities Education Act,"
(A-06-01-00077)
October 29, 2002
Complete
Text of Report is available in PDF format (521 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether school districts in Oklahoma
billed Medicaid for school-based health services that were (1) provided free
to other students, and (2) not exempt under the Individuals with Disabilities
Education Act (IDEA). We found Oklahoma lacks procedures to ensure that health
services billed under the non-IDEA system were not provided free to all students.
Based on our review and additional documentation provided by the state after
issuance of the draft report, the services provided to the 100 selected beneficiaries
we reviewed were all incorrectly billed. Services for 97 of the beneficiaries
were billed incorrectly because the services were provided free to other students
and were not exempt under the IDEA program. The claims for the remaining three
beneficiaries were billed incorrectly because these beneficiaries and services
were IDEA eligible and should have been billed under the IDEA program. Based
on a projection of the statistical sample, we estimated at least $1,902,390
in federal financial participation was for services not in compliance with federal
guidelines and CMS policy. We recommended procedural improvements and a financial
adjustment for the $1,092,390. We also recommended that Oklahoma review periods
not covered in the audit period and make appropriate adjustments.